           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  HOMELESS OUTREACH PROJECTS
       AND EVALUATION
    DEMONSTRATION PROJECT

      July 2010   A-03-09-19073




 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      July 2, 2010                                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Homeless Outreach Projects and Evaluation Demonstration Project (A-03-09-19073)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA) had
           appropriate oversight and monitoring controls for the Homeless Outreach Projects and
           Evaluation Demonstration Project (HOPE). In addition, we determined whether
           (1) expenditures for HOPE were allowed, supported, and in accordance with the grant’s
           terms and (2) grantees accomplished the grant objectives.

           BACKGROUND
           Congress provided SSA with about $24 million to conduct outreach and application
           assistance to people who were homeless and other under-served populations. SSA
           used the funds to establish HOPE 1 in support of the Presidential initiative to end chronic
           homelessness within 10 years. HOPE’s goals were to (1) assist eligible, chronically
           homeless individuals in applying for Supplemental Security Income (SSI) and Social
           Security disability benefits and (2) demonstrate the effectiveness of using skilled
           medical and social service providers to identify, engage, and assist homeless
           individuals with disabling conditions to file for benefits within current policy.

           In May 2004, SSA awarded 34 grants, 2 totaling approximately $18 million for a 4-year
           period, to public and private organizations for HOPE. In November 2004, SSA awarded
           an additional seven grants, totaling about $3.3 million. 3 The 41 grantees were required
           1
             Demonstration projects provide evidence of the feasibility and effectiveness of a new approach or
           practice. Demonstration projects are typically among the most costly, lengthy, and complex research
           projects that SSA conducts, and these projects are expected to answer long-standing policy questions. If
           results are not valid and reliable, they are not useful for policy formulation.
           2
             SSA awarded cooperative agreements, which are similar to grants except that cooperative agreements
           require substantial involvement between SSA and the grantee during performance of the contemplated
           activity. In this report, we refer to cooperative agreements as grants.
           3
               See Appendix C for a list of the 41 HOPE grantees.
Page 2 - The Commissioner


to provide outreach, support services, and benefit application assistance to chronically
homeless adults and children. In addition, HOPE grantees could perform optional
activities including presumptive disability screening, pre-release assistance for
institutionalized individuals with disabilities, representative payee services, employment
interventions, and electronic services to file for benefits. SSA also required that HOPE
grantees work with a contractor to independently evaluate HOPE’s outcomes, impacts,
and benefits.

SSA expected the 41 grantees to effectively identify people who were chronically
homeless so they could receive the assistance and care they needed. In addition, SSA
expected that information and technical assistance the grantees received from SSA
regional and disability determination services (DDS) employees would increase the
efficiency of the disability application process for claimants. In this way, SSA would see
a reduction in disability case processing time and denials for initial claims from
individuals who were eligible for disability benefits.

Grant Process

SSA’s Office of Acquisition and Grants (OAG) is responsible for processing grant
applications and monitoring them once they are awarded. OAG’s monitoring duties
include reviewing quarterly progress reports, reviewing quarterly and final Financial
Status Reports (FSR), 4 making determinations on re-budgeting grant funds, reviewing
requests for carryover funds, conducting necessary site visits, and closing out the grant
at the end of an award period. 5

Once a grant is awarded, OAG requests that SSA’s Office of Finance (OF) allocate
funds to an account to fund activities. OF sets up an account in which all grant funds for
a grantee are allocated by Fiscal Year (FY). OF processes monthly reimbursement
requests from the grantees and makes payments. A grantee can choose to either
receive advanced payments or request reimbursement.

SSA’s Office of Program Development and Research (OPDR) was responsible for
designing, implementing, and evaluating HOPE. OPDR’s monitoring duties included
reviewing quarterly progress reports, conducting necessary site visits, addressing
program issues and concerns, and ensuring grantee acceptance and compliance with
the grant’s terms and conditions. Furthermore, as part of HOPE, SSA provided the
grantees information on its disability programs and application procedures. It also
provided a regional/field office liaison and a State DDS liaison, who were responsible for
offering grantees a range of technical assistance.




4
 Federal agencies use the FSR (Form–269A) to monitor the financial progress of grants and show the
status of funds.
5
    SSA Grant Administration Manual, Section 4-05-00, August 22, 2007.
Page 3 - The Commissioner


To perform our analysis, we reviewed relevant Federal guidance 6 on grant
management, SSA policies, and grant awards for the 41 grantees. Furthermore, we
conducted a detailed review of 11 (27 percent) of the 41 grantees who received
approximately $5.8 million in grant awards. 7 We sampled their direct costs, payroll,
indirect costs, and matching costs incurred in 2004 through 2009 to determine whether
(1) grantees’ expenditures were allowed, supported, and in accordance with the terms
of the grant award and (2) grantees accomplished the grant objectives. Finally, we
evaluated the results of HOPE. See Appendix B for details on our scope and
methodology.

RESULTS OF REVIEW
Several grantees for HOPE did not meet one of the project’s objectives. Each grantee
was expected to enroll about 200 eligible chronically homeless individuals and assist
them with Social Security Disability Insurance or SSI program application process. In
total, the HOPE grantees were expected to enroll about 8,200 chronically homeless
individuals. Although the 41 grantees had reported enrolling 10,500 chronically
homeless individuals, we could only verify that 7,243 individuals (69 percent) had
actually filed an application for Social Security benefits. For the remaining
3,257 enrollees (31 percent), we could not verify that an application had been filed for
1,845 enrollees, the grantees did not submit a Social Security number (SSN) for
1,184 enrollees, and the SSNs provided for 228 enrollees were invalid.

Additionally, SSA hired a contractor to conduct an interim evaluation of HOPE to
determine its outcomes, impacts, and benefits. We found grantees did not always
provide the contractor with the necessary information to assess improvements in the
enrollees’ quality of life. For example, grantees only provided data on the living
situations for 655 of the 3,055 enrollees who were included as part of the evaluation.
Therefore, the contractor was unable to assess the living situations for the remaining
2,400 enrollees.

Furthermore, SSA’s oversight and monitoring of the 41 grantees could have been
improved. We question $118,566 in grant funds awarded to 5 of the 11 grantees
reviewed because of the lack of adequate supporting documentation. In addition, we
question $96,630 in grant funds because 6 of the 41 grantees did not demonstrate that
required matching funds were provided. OAG had not found these unsupported costs
because they did not conduct site visits to ensure grant expenditures were allowed and
supported. In addition, as of January 5, 2010, OAG was at least 284 days late in
closing 2 grants in which the grantees had submitted their final reports to the Agency,
and 15 grantees were 156 to 516 days late in submitting their final reports to the
Agency. As a result, $83,725 in grant funds was not deobligated, and OAG had no


6
 Office of Management and Budget Circulars A-21, Cost Principles for Educational Institutions, and
A-133, Audits of States, Local Governments, and Non-Profit Organizations.
7
    See Appendix D for details about the 11 sample grantees.
Page 4 - The Commissioner


support that the grantees had expended $213,977 in grant funds. Finally, we found OF
did not deobligate $12,446 in grant funds that a grantee did not use.

ACHIEVING GRANT OBJECTIVES

The 41 grantees were expected to conduct outreach activities to locate homeless
individuals with disabling impairments who were potentially eligible for Social Security
benefits. Homeless individuals are considered to be enrolled for HOPE when they sign
a HOPE consent form, sign an application for SSI or Social Security disability benefits,
and file an application with SSA. Each grantee was expected to enroll a minimum of
50 individuals annually by assisting with the application process and assisting the
individuals with participating in SSA’s electronic application and case processing. 8
However, the Agency anticipated that some grantees might have difficulty enrolling
50 homeless individuals during the grant’s first year because of the start-up period
needed for grantees to train and prepare staff for the project. Therefore, the
41 grantees were expected to enroll slightly fewer than 8,200 individuals during the
4-year grant period. Grantees could enroll individuals who had not yet filed an
application for Social Security benefits as well as those whose benefits had been
suspended or terminated. However, grantees could not enroll individuals who had
applications pending with SSA or those who had already filed for a reconsideration or
appeal of a denial or partially favorable decision.

The 41 grantees’ quarterly progress reports 9 indicated that they had enrolled
10,500 individuals who applied for Social Security benefits. However, we could only
verify that 7,243 (69 percent) of these reported enrollees had filed an application
(see Table 1). Of these 7,243 enrollees, 6,302 (87 percent) were awarded or had been
reinstated for SSI or Social Security disability benefits, 891 (12 percent) were denied
benefits, and 50 (1 percent) were awaiting a decision. We could not verify that 3,257 of
the 10,500 individuals were enrolled because an application was not filed for
1,845 enrollees, and the SSNs provided for 228 enrollees were invalid. Additionally, the
grantees did not submit an SSN for 1,184 enrollees (see Table 2). In July 2009, OPDR
requested that each of the 41 grantees provide the enrollees’ names, SSNs, and dates
enrolled because OPDR had not been tracking this information during the life of HOPE.
OPDR had relied on a contractor to track the enrollee information from June 2005
through April 2007. The grantees provided OPDR with enrollee information for 9,316 of
the 10,500 enrollees but had not provided any information for the remaining
1,184 individuals. According to data provided by OPDR staff, 3 of the 41 grantees did
not respond to their requests for enrollee information. In addition, the grantees’
progress reports indicated some of the 1,184 individuals might have been erroneously
counted as enrollees. The progress reports showed that some grantees counted an
individual as an enrollee when they signed a consent form to participate in HOPE but
did not file a claim for Social Security benefits.
8
    See Appendix E for detailed grant requirements.
9
  Grantees are required to submit quarterly progress reports that provide SSA with a comparison of the
actual accomplishments to the objectives that were established for the grant period. Further, these
reports assist SSA in providing proper oversight and technical assistance to grantees.
Page 5 - The Commissioner


                            Table 1— Enrollees with Application Filed
                    Status                    Total Enrollees             Percent
        Allowed benefits                           6,302                     87
        Denied benefits                             891                      12
        Awaiting a decision at the
                                                     50                       1
        time of our review
               Total Enrollees                     7,243                     100

                        Table 2— Enrollees without Application Filed
                    Status             Total Enrollees          Percent
        A claim was not filed for the
        enrollees                                  1,845                     57
        Grantees did not provide
        enrollee information                       1,184                     36
        Grantees provided invalid
        SSNs for enrollees                          228                       7
               Total Enrollees                     3,257                    100

We were unable to use the data provided by OPDR staff to verify whether grantees had
enrolled about 200 homeless individuals during the 4-year grant period. 10 However, our
review of the grantees’ quarterly progress reports showed that 10 of the 41 grantees
had not enrolled 200 homeless individuals during this period. The 10 grantees reported
they had enrolled 144 to 197 individuals during the 4-year period. 11 In fact, 5 of the
10 grantees did not enroll 50 individuals for at least 3 of the 4 grant years. For example,
a grantee in Michigan enrolled 170 individuals during the 4-year grant period: 17 in year
1; 21 in year 2; 96 in year 3; and 36 in year 4. Of the 10 grantees, 7 had indicated they
were unable to meet the expected enrollment number because of certain impediments.
For example, 2 of the 10 grantees provided services in Louisiana, and they did not meet
the minimum expectation because the homeless were displaced by Hurricane Katrina.
Five grantees reported that sources for recruiting potential enrollees were no longer
available, they had difficulty maintaining contact with potential enrollees (that is,
prisoners), or they had difficulty due to an unexpected move to a different location. SSA
found these to be plausible explanations for not meeting the expectations set forth in the
grant award. The remaining three grantees did not indicate why they did not meet the
requirement.

SSA’s demonstration projects are to provide evidence of the feasibility and
effectiveness of a new approach or practice. Because SSA did not discover any policy
barriers for the homeless during HOPE, it does not envision changing its current policies
and procedures for the homeless. However, SSA continues to conduct outreach and
support initiatives that serve the homeless. For example, SSA supports the SSI/SSDI

10
  We could not rely on the data because it appeared to be incomplete and inaccurate. For example, the
data included duplicate and missing SSNs.
11
     See Appendix C for more details about the 10 grantees.
Page 6 - The Commissioner


Outreach Assistance and Recovery Technical Assistance Initiative (SOAR) sponsored
by the Departments of Health and Human Services, Housing and Urban Development,
Labor, and Veterans Affairs. The goal of SOAR is to help States and communities
increase access to SSI and SSDI for homeless people with mental illnesses and/or co-
occurring substance use disorders. According to OPDR staff, many of the HOPE
grantees have built off their HOPE experience and are now participating in SOAR or
have found other ways to continue providing outreach and assistance to the homeless.

EVALUATION OF HOPE

In September 2004, SSA hired a contractor to provide an interim evaluation of the
outcomes, impacts, and benefits of HOPE. 12 The interim evaluation was used to
determine the impact training had on the quality of assistance the grantee provided to
disability applicants. 13 SSA was particularly interested in achieving such outcomes as
reduced processing time and reduced denials for claims from individuals who would be
eligible for benefits under SSA’s rules. SSA was also interested in the degree to which
the assistance the grantees provided the homeless improved their quality of life,
particularly in attaining stable housing. The contractor analyzed the data collected to
compare HOPE grantee outcomes to two groups of agencies that provided similar
services to people who were chronically homeless and disabled, and the agencies were
located in close proximity to the grantees but did not receive HOPE funding. 14

The September 2007 contractor’s evaluation showed that HOPE grantees did not
always provide the contractor with the necessary information to assess improvements in
the quality of life for enrollees. We found that although the original 34 grantees15 had
been expected to enroll at least 5,100 individuals as of May 2007, data for only
3,055 enrollees (60 percent) could be used for the evaluation. The contractor could not
evaluate data for 2,045 enrollees because either an initial disability determination had
not been completed or an application had not been filed for 1,445 enrollees, and the
grantees did not provide valid consent forms for 600 enrollees, allowing personal
information to be disclosed to the contractor. 16 Additionally, the grantees only provided

12
  The Agency had conducted a final evaluation of HOPE, but the results were not available at the time of
our review.
13
     Evaluation of Homeless Outreach Projects and Evaluation, Final Evaluation Report October 2007.
14
  The contractor identified 32 agencies and collected the SSA file data from clients of the agencies. The
agencies were randomly divided into two groups. Group 1 received the same HOPE Program Orientation
Manual but did not receive any other support beyond that routinely received in community settings.
Group 2 did not receive a manual or training from SSA. The two comparison groups included data for
214 individuals who filed claims with SSA.
15
   The contractor used data for the original 34 grantees for the evaluation. They had 3 years of enrollee
information available at the time of the evaluation.
16
  The Privacy Act of 1974, as amended, 5 U.S.C. § 552a(b), states an agency shall not disclose any
record to a third party without the prior written consent of the record subject, unless an exception permits
the disclosure.
Page 7 - The Commissioner


data on the living situations for 655 of the 3,055 enrollees. Therefore, the contractor
was unable to assess improvements in the quality of life for the remaining
2,400 enrollees.

Based on the 3,055 enrollees, the contractor had concluded HOPE grantees were able
to achieve a quicker time for determination than for the 2 separate comparison groups.
For the HOPE grantees, determinations on the allowance and denial of Social Security
benefits were made on average in 4.9 months as compared to the other two groups
whose determinations were made on average in 5.7 months (see Table 3). 17 Thus,
HOPE grantees received a determination almost a month earlier than the two groups.

                         Table 3 – Comparison of Determination Rate
                                     Average Months to Difference Compared
                                       Determination     to HOPE Grantees
           HOPE Grantees                            4.9
           Group 1                                  5.6                          -0.7
           Group 2                                  5.8                          -0.9
           All Groups                               5.7                          -0.8
          Source: McCoy, Marion L., Cynthia S. Robins, James Bethel, Carina Tarnow, and
          William D. Frey. 2007. Evaluation of Homeless Outreach Projects and Evaluation
          (HOPE). WESTAT: Rockville, MD

In addition, the contractor concluded that the efficiency of the HOPE grantees to
achieve a higher disability allowance rate for their enrollees over the two groups was not
demonstrated because the difference was not statistically significant. As shown in
Table 4, the HOPE grantees had a 41-percent allowance rate while the two groups had
a 47-percent allowance rate, a difference of 6 percent. Therefore, the comparison
agencies had a slightly higher allowance rate. However, the evaluation indicated there
might have been an uneven implementation pattern among the HOPE grantees that
could have affected the allowance rate. Based on visits to 5 of the 34 grantees, the
contractor found 3 grantees reported enrolling anyone who met the definition of
“chronically homeless” and claimed to have a disabling condition, while 2 grantees used
a stricter criteria to avoid individuals who might have tried to “scam the system.” The
evaluation did not discuss the two groups’ methodologies for enrolling homeless
individuals.




17
  The time for a determination included the time between the filing date of a disability benefit application
with SSA and the date a decision was made to approve or deny the claim.
Page 8 - The Commissioner


                           Table 4 – Comparison of Allowance Rates
                                                                  Difference Compared
                                             Allowance Rate
                                                                   to HOPE Grantees
               HOPE Grantees                       41%
               Group 1                             39%                     -2%
               Group 2                             58%                     17%
               All Groups                          47%                     -6%
              Source: McCoy, Marion L., Cynthia S. Robins, James Bethel, Carina Tarnow, and
              William D. Frey. 2007. Evaluation of Homeless Outreach Projects and Evaluation
              (HOPE). WESTAT: Rockville, MD

SSA OVERSIGHT AND MONITORING OF HOPE

We found OAG was monitoring the HOPE grantees by making determinations on
re-budgeting grant funds, reviewing requests for carryover funds, and working closely
with grantees to resolve problems. However, OAG’s oversight and monitoring of the
grantees could have been improved. We question $118,566 in grant funds awarded to
5 of the 11 grantees reviewed because of the lack of adequate supporting
documentation. In addition, we question $96,630 in grant funds because 6 of the
41 grantees did not demonstrate that required matching funds were provided. OAG had
not discovered these unsupported costs because it did not conduct site visits to ensure
grant expenditures were allowed and supported. In addition, as of
January 5, 2010, OAG was at least 284 days late in closing 2 grants in which the
grantees had submitted their final reports to the Agency, and 15 grantees were 156 to
516 days late in submitting their final reports to the Agency. As a result, $83,725 in
grant funds was not deobligated, and SSA had no support that the grantees had
expended $213,977 in grant funds. Finally, we found OF did not deobligate $12,446 in
grant funds not used by a grantee.

Unsupported Grant Expenditures

Financial records, supporting documents, statistical records, and all other records
pertinent to a grant award must be retained for 3 years from the date of submission of
the final expenditure report. 18 We found 5 of the 11 grantees reviewed were unable to
provide documentation to support the $118,566 in expenditures (see Table 5) related to
computer equipment, supplies, travel, and administrative costs. For example, a grantee
in Indiana could not provide supporting documentation for $81,645 of the $511,605 in
grant award funds. According to the grantee, they could not produce documentation to
support the expenditures because the computer used to track the financial data for the
grant was destroyed in 2008. Another grantee in Connecticut could not provide
documentation or show physical evidence for the purchase of 17 laptop computers,
modems, and scanners totaling $19,550.




18
     20 C.F.R. § 435.53.
Page 9 - The Commissioner


                              Table 5 - Unsupported Expenditures
                                                             Amount            Percent        Total
                            Type of Unsupported
  State of Grantee                                         Unsupported           of           HOPE
                               Expenditures
                                                           Expenditures        Award          Award
 Connecticut              Supplies                             $19,550           4.0         $550,000
 New York                 Travel and Supplies                     $715           0.2         $412,500
 District of Columbia     Consulting and Supplies               $1,745           0.3         $550,000
 Florida                  Administrative Expenses1             $14,911           3.0         $550,000
 Indiana                  Supplies                             $81,645           16.0        $511,605
 Total                                                        $118,566                      $2,574,105
Note: (1) The grantee’s general ledger identified these expenses as administrative.

Matching Funds Requirement

HOPE required matching funds from grantees to broaden the impact it would have on
the homeless population. Our review of the grantee’s final FSRs and financial records
showed that 6 of the 41 grantees did not substantiate that they provided the required
matching share of $96,630 (see Table 6). The grant award required that the grantees
provide a matching share that equals a minimum of 5 percent of the total project costs.
The matching share is calculated using the following formula: Federal share divided by
.95 equals total project costs. The matching share equals the total project cost minus
the Federal share. Since the six grantees did not demonstrate that the required
matching funds were provided, we question $96,630 in grant funds.

                            Table 6—Unsupported Matching Share
                                       Total         Required           Actual
                                                                                        Questioned
         State of Grantee             Federal        Matching          Matching
                                                                                          Costs
                                       Share           Share            Share
   Connecticut                       $550,000         $28,947            $0(1)              $28,947
   Indiana                           $511,605         $26,927            $0(1)              $26,927
   New York                          $400,054         $21,055            $0(1)              $21,055
   California                        $548,484         $28,868          $12,983              $15,885
   Massachusetts                     $445,423         $23,443          $21,222               $2,221
   Oregon                            $377,206         $19,853          $18,258               $1,595
   Total                                                                                    $96,630
  Note: (1) During our site visits, the grantees could not provide support for any of their matching share.

Closing of Grants

We found that SSA failed to close two grants although the grantees had submitted their
required final reports to the Agency on July 21, 2008 and March 21, 2009, respectively.
Therefore, as of January 5, 2010, OAG was 284 and 533 days late, respectively, in
closing these grants. As a result, $83,725 in grant funds was not deobligated for one of
the two grantees. OAG did not close this grant because it was waiting for the grantee to
provide its final indirect cost rate. However, we did not find any evidence that OAG had
followed up with the grantee to obtain the final indirect cost rate. According to SSA
policy, when the grant period has ended, SSA is required to close the grant to ensure
Page 10 - The Commissioner


the Government’s interest has been adequately protected. 19 The close-out process
requires that SSA obtain and review the grantee’s final FSR and progress report, which
are due within 90 days after the grant’s expiration. We believe SSA must take steps to
ensure grants are closed timely so Federal dollars can be deobligated when not needed
and put to better use.

Submission of Final Reports

As of January 5, 2010, we found 15 grantees had not submitted their final FSRs even
though the grants had ended. Of the 15 grantees, 14 had not submitted their final FSRs
and 1 had not submitted both their final FSR and progress report. The grantees were
between 156 and 516 days late in submitting the final reports. Because the final FSRs
were not submitted to OAG timely, there was no evidence that 7 of 15 grantees had
expended about $213,977 in grant funds. While OAG had notified the grantees of the
requirement to submit the final reports 30 days before the grant expiration date, we
found OAG did not always follow up with the grantees to ascertain the reason for delay
and obtain a revised submission date, as required by its policy. 20 We believe OAG
needs to follow up with the 15 grantees to ensure they submit their final FSRs to the
Agency.

Deobligate Grant Funds

We found OF did not deobligate $12,446 in grants funds for a grantee who submitted its
final FSR. These funds were not deobligated because OF did not compare the amount
of the grant award to the amount drawn down by the grantee. Instead, they relied on
the balances reported on the grantee’s final FSRs, which erroneously showed a zero
balance. Our comparison of the amount awarded to the amount received showed the
grantee had an unobligated balance of $12,446. We informed staff in OF, and they
deobligated the $12,446 at the time of our review.

CONCLUSION AND RECOMMENDATIONS
Because the HOPE grantees did not always deliver the performance they were funded
to produce by assisting about 8,200 homeless individuals with applying for Social
Security benefits, HOPE did not benefit as many homeless individuals as intended. Our
review found that the 41 grantees had only assisted 7,243 of the 10,500 reported
enrollees with filing a claim for Social Security benefits. We were not able to verify
whether an additional 3,257 enrollees had applied for benefits through HOPE. In
addition, while we found OAG was monitoring the grantees by making determinations
on re-budgeting grant funds, reviewing requests for carryover funds, and working
closely with grantees to resolve problems, we believe OAG still needed to increase its
oversight and monitoring of the HOPE grantees. Specifically, OAG needed to ensure
that grantees submitted the required FSRs and progress reports, which demonstrates

19
     SSA Grant Administration Manual, Section 4-05-00, August 22, 2007.
20
     SSA Grant Administration Manual, Section 3-10-10, August 22, 2007.
Page 11 - The Commissioner


whether grant funds were being used effectively and as intended. In addition, OAG
needed to ensure that site visits were performed and grants were closed in a timely
manner.

Accordingly, we recommend SSA:

1. Require that the five grantees provide adequate support or return $118,566 to SSA.

2. Require that the six grantees provide adequate support for the matching share or
   return $96,630 in grant funds to SSA.

3. Deobligate $83,725 in grant funds awarded but not disbursed to one grantee.

4. Ensure that grants are closed in accordance with SSA policy.

5. Follow up with the 15 grantees to ensure they submit their final financial and/or
   progress reports.

6. Improve monitoring of the grants by conducting site visits when warranted so
   problems are identified and corrective action is taken to help grantees achieve or
   revise their performance objectives.

7. OAG, OPDR, and OF should work together to enhance the monitoring and oversight
   of grantees to ensure that grant funds are used appropriately and as intended.

AGENCY COMMENT
SSA agreed with our recommendations. See Appendix F for the full text of SSA’s
comments.




                                                    Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Homeless Outreach Projects and Evaluation Demonstration Project
             Grantees

APPENDIX D – Summary of Sampled Grantees

APPENDIX E – Homeless Outreach Projects and Evaluation Demonstration Project
             Grantees Core and Optional Functions

APPENDIX F – Agency Comment

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
C.F.R.      Code of Federal Regulations
DDS         Disability Determination Services
FY          Fiscal Year
FSR         Financial Status Report
HOPE        Homeless Outreach Projects and Evaluation Demonstration
            Project
OAG         Office of Acquisition and Grants
OF          Office of Finance
OIG         Office of the Inspector General
OPDR        Office of Program Development and Research
SSA         Social Security Administration
SSI         Supplemental Security Income
SSN         Social Security Number
U.S.C.      United States Code

Form
Form–269A   Financial Status Report
                                                                       Appendix B

Scope and Methodology
To accomplish our objectives, we:

   •   Reviewed the Social Security Administration’s (SSA) policies and procedures on
       grant management, including SSA’s Grant Policy Handbook and Grant
       Administration Manual.

   •   Reviewed applicable Federal laws and regulations regarding grant awards as
       well as Office of Management and Budget Circulars A-21 (Cost Principles for
       Educational Institutions) and A-133 (Audits of States, Local Governments, and
       Non-Profit Organizations).

   •   Reviewed the Evaluation of Homeless Outreach Projects and Evaluation
       Demonstration Project (HOPE) Final Evaluation Report, October 2007.

   •   Reviewed the terms and conditions of the grant set forth in the solicitation and
       award.

   •   Reviewed the HOPE project applications, Budget Narratives, Financial Status
       Reports, and Quarterly Progress Reports as well as SSA’s correspondence with
       grantees.

   •   Reviewed the 41 grantees to determine whether a Single Audit was performed in
       Fiscal Year 2007.

   •   Reviewed allegations of fraud concerning one grantee in Indiana.

   •   Obtained and reviewed the grant files for all 41 HOPE grantees, which included
       grant award document, approved budgets, quarterly Financial Status Reports
       (FSR) (Form-269A), quarterly progress reports, and other correspondence.

   •   Obtained and reviewed the 41 HOPE grantees’ reimbursement histories from the
       Social Security Online Accounting and Reporting System.

   •   Selected 11 grantees for review based on the following criteria:

        each SSA region was represented in the selection;
        grantees who did not meet the HOPE objective of enrolling at least
         50 homeless individuals within a grant year; and
        grantees who had the lowest and highest outcome of favorable decisions.



                                           B-1
   •   Conducted 11 site visits and tested samples of grantees’ direct costs, payroll,
       indirect costs, and matching costs.

   •   Obtained and reviewed the data extract of enrollee information provided by the
       grantees in August 2009.

   •   Reviewed the National Disability Determination Services System, Master
       Beneficiary Record, and the Supplemental Security Record.

We performed our audit in the Philadelphia Audit Division and at the locations of the
11 sample grantees between April 2009 and January 2010. We determined that data
used for this audit were sufficiently reliable to meet our audit objectives. We assessed
the reliability of the data by reconciling sample invoices to the selected transactions. In
addition, we verified claim data for enrollees to SSA’s records. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.




                                           B-2
                                                                           Appendix C

 Homeless Outreach Projects and Evaluation
 Demonstration Project Grantees
 The Homeless Outreach Projects and Evaluation Demonstration Project (HOPE) is a
 Social Security Administration (SSA) initiative to assist the chronically homeless. In
 May 2004, SSA awarded 34 grants, totaling about $18 million, to public and private
 organizations to provide outreach, support services, and benefit application assistance
 to chronically homeless adults and children. As of September 2009, the 34 grantees
 had drawn down about $17.7 million of the $18 million in grants funds.

                                                                           Received
                   Total                                                               Total
Count of                       Grant Funds          Start                   No Cost
         State     Grant                                      End Date               Reported
Grantees                        Received            Date                   Extension
                   Award                                                       (b )  Enrollees
   1       CA     $550,000       $550,000          5/1/2004   4/30/2008                 394
   2       CA     $550,000       $547,937          5/1/2004   4/30/2008                 224
   3       CA     $537,130       $537,129          5/1/2004   4/30/2008                 215
   4       CA     $547,401       $547,403          5/1/2004   4/30/2008                 223
   5       CA     $549,595       $549,567          5/1/2004   6/30/2008      Yes       175(a)
   6       CA     $550,000       $548,484          5/1/2004   4/30/2008                 240
   7       CA     $527,004       $527,003          5/1/2004   6/30/2008      Yes        216
   8       CA     $550,000       $550,000          5/1/2004   10/31/2008     Yes        309
   9       CO     $550,000       $540,534          5/1/2004   4/30/2008                 571
   10      CT     $550,000       $550,000          5/1/2004   4/30/2008                 238
   11      DC     $550,000       $490,796          5/1/2004   5/31/2008      Yes        233
   12      FL     $550,000       $550,000          5/1/2004   4/30/2008                 207
   13      HI     $514,720       $514,720          5/1/2004   10/31/2008     Yes        296
   14      KS     $481,520       $479,672          5/1/2004   4/30/2009                 320
   15      LA     $549,989       $546,081          5/1/2004   4/30/2009                160(a)
   16      LA     $550,000       $550,000          5/1/2004   4/30/2008                144(a)
   17      MA     $550,000       $466,275          5/1/2004   10/31/2008     Yes       154(a)
   18      MA     $538,063       $538,063          5/1/2004   4/30/2008                 219
   19      MA     $550,000       $550,000          5/1/2004   4/30/2008                 271
   20      MI     $550,000       $538,149          5/1/2004   4/30/2009                170(a)
   21      MN     $394,194       $393,834          5/1/2004   4/30/2008                 226
   22      MN     $550,000       $535,572          5/1/2004   4/30/2008                 312
   23      NV     $486,640       $486,640          5/1/2004   4/30/2008                 431
   24      NY     $545,897       $492,167          5/1/2004   4/30/2008                197(a)
   25      NY     $550,000       $550,000          5/1/2004   4/30/2008                 220
   26      NY     $550,000       $528,376          5/1/2004   4/30/2008                195(a)
   27      NY     $412,500       $400,054          5/1/2004   4/30/2008                187(a)
   28      NY     $550,000       $550,000          5/1/2004   4/30/2008                 227
   29      OH     $550,000       $550,000          5/1/2004   7/31/2008      Yes        329



                                             C-1
                                                                                    Received
                       Total                                                                    Total
Count of                             Grant Funds           Start                     No Cost
         State         Grant                                          End Date                Reported
Grantees                              Received             Date                     Extension
                       Award                                                            (b )  Enrollees
   30        OR    $550,000            $550,000           5/1/2004    4/30/2008                     185(a)
   31        OR    $377,206            $377,207           5/1/2004    4/30/2008                      488
   32        TX    $550,000            $539,812           5/1/2004    4/30/2009                      330
   33        WA    $550,000            $550,000           5/1/2004    8/31/2008         Yes         197(a)
   34        WI    $550,000            $550,000           5/1/2004    8/31/2008         Yes          238
            Total $18,011,859        $17,725,476(c)                                                 8,741
 Note: (a) The 10 grantees did not enroll at least 200 homeless individuals during the 4-year grant period.
       (b) The grantees were granted an extension without receiving additional grant funds.
       (c) Number is higher due to rounding.

 In November 2004, SSA awarded an additional seven grants totaling about $3.3 million
 to private and public organizations. As of September 2009, the seven grantees had
 drawn down about $3.2 of the $3.3 million in grant funds.

                                        Grant                                       Received        Total
Count of              Total Grant
            State                       Award         Start Date     End Date        No Cost      Reported
Grantees                Award
                                       Received                                     Extension     Enrollees
   1        AZ         $549,621        $512,271       11/1/2004      10/31/2008                      202
   2         IN        $511,614        $511,605       11/1/2004      10/31/2008                      249
   3        MA         $445,423        $445,423       11/1/2004      10/31/2008                      220
   4        NC         $266,891        $239,666       11/1/2004      10/31/2008                      209
   5        TX         $430,445        $373,696       11/1/2004      10/31/2009                      233
   6        TX         $550,000        $550,000       11/1/2004      10/31/2008                      284
   7         WI        $550,000        $550,000       11/1/2004      10/31/2008                      362
           Total      $3,303,994      $3,182,661                                                    1,759
           Grand
   41      Total      $21,315,853 $20,908,137                                                       10,500




                                                    C-2
                                                  Appendix D

Summary of Sampled Grantees
                   Total Grant   Unsupported     Unsupported
  Count    State     Award       Expenditures   Matching Funds
    1       CT      $550,000       $19,550         $28,947
    2       NY      $412,500         $715          $21,055
    3       DC      $550,000        $1,745          None
    4       FL      $550,000       $14,911          None
    5       IN      $511,614       $81,645         $26,927
    6       LA      $549,989         None           None
    7       KS      $481,520         None           None
    8       CO      $550,000         None           None
    9       CA      $550,000         None           None
   10       CA      $527,005         None           None
   11       OR      $550,000         None           None
          Total    $5,782,627      $118,566        $76,929
                                                                        Appendix E

Homeless Outreach Projects and Evaluation
Demonstration Project Grantees Core and
Optional Functions
Grantees were required to perform the core functions and could choose to perform
other optional functions.

Core Grant Activities

   •   Conduct outreach activities to locate homeless individuals with disabling
       impairments who are potentially eligible for Social Security benefits. Grantees
       are expected to enroll at least 50 individuals annually. Grantees may enroll
       individuals who have not yet filed an application for Social Security benefits as
       well as those whose benefits are suspended or terminated. Grantees may not
       enroll individuals who have applications pending with the Social Security
       Administration (SSA) or those who have already filed for a reconsideration or
       appeal of a denial or partially favorable decision. Grantees may enroll individuals
       with whom they had contact before the grant award, if the individual has not
       already filed a claim for benefits. To be considered a project participant, an
       individual must be enrolled by the grantee using the reporting mechanism
       provided by SSA and its evaluation contractor.

   •   Provide direct assistance to homeless individuals in the Social Security benefit
       application process.

   •   Assist claimants with finding necessary documentation for the Social Security
       benefit application and appeals process, including proof of identity, financial
       records, and medical records.

   •   Provide existing medical evidence in the claimant’s medical records.

   •   Perform any necessary medical examinations, arrange for such examinations,
       and/or establish a collaborative relationship with an organization that will perform
       any examinations needed to make a disability determination.

   •   Assist claimants with attending consultative examinations, when necessary.

   •   Provide information regarding the effect a claimant’s impairment has on their
       ability to perform work.




                                            E-1
   •   Maintain contact with the claimant throughout the determination process and help
       the claimant respond to requests for further information.

   •   Assist claimants with filing reconsideration requests and appeals.

   •   Collaborate with, and make referrals to, other organizations to ensure favorable
       outcomes for claimants and beneficiaries, including working with agencies that
       provide
          o   mental health services;
          o   supportive housing;
          o   community-based health care services;
          o   employment rehabilitation services;
          o   job placement;
          o   benefit planning assistance and outreach;
          o   veterans' health benefits;
          o   substance abuse treatment;
          o   translation and/or interpreter services; and
          o   services to parolees and those in work-release programs.

   •   Assist claimants with participating in SSA electronic application and case
       processing initiatives.

   •   Attend training designed to improve the quality of core activities.

   •   Plan for project continuation when grant funding ends.

Optional Activities: The grantees could use grant funds to perform functions that
would help homeless individuals with disabling impairments attain stable supportive
housing, recover, attain employment, and use benefits to meet basic needs. Funds
could be used to:

   •   Develop and improve representative payee services.

   •   Screen claimants for “presumptive disability.” Under SSA program rules, a
       Supplemental Security Income claimant may receive payments, for up to
       6 months, based on a presumption of disability. Grantees who choose to
       exercise the option to include a presumptive disability element in their project will
       work with SSA program staff, and local field office and disability determination
       services representatives, after award, to establish and implement any project-
       specific procedures that may be deemed necessary by SSA.

   •   Establish and implement pre-release procedures.

   •   Improve electronic services and information sharing.




                                            E-2
   •   Develop a work entry/return-to-work program.

Evaluation: Grantees were required to work with the evaluation contractor who
conducted an independent evaluation of outcomes, impacts, and benefits of the HOPE
projects. The evaluation contractor developed an interactive website to collect
evaluation information from the grantees. The grantees were required to use the
Website monthly to report enrollee information. The contractor used the Website to
track enrollee information from June 2005 through April 2007.




                                         E-3
                       Appendix F

Agency Comment




                 F-1
                                          SOCIAL SECURITY

MEMORANDUM


Date:      July 1, 2010                                                            Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, "Homeless Outreach Projects and
           Evaluation Demonstration Project" (A-03-09-19073)--INFORMATION

           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. We agree with the results of your review and are taking the
           necessary steps to implement the recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.




                                                          F-2
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Cylinda McCloud-Keal, Director, Philadelphia Audit Division

   Carol Madonna, Audit Manager

Acknowledgments

In addition to those named above:

   Damon Mahoner, Senior Auditor

   Michael Brooks, Auditor

   David Domzalski, Auditor

   Richard Devers, IT Specialist

   Atlanta Audit Division
   Chicago Audit Division
   Dallas Audit Division
   Falls Church Audit Division
   Kansas City Audit Division
   New York Audit Division
   San Francisco Audit Division

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-03-09-19073.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
